Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICAID DRUG PRICE 

        COMPARISON: 

   AVERAGE SALES PRICE TO 

  AVERAGE WHOLESALE PRICE





                    Daniel R. Levinson

                    Inspector General 


                       June 2005 

                     OEI-03-05-00200

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                   S U M M A R Y                                                



                  OBJECTIVE
                  To compare average sales price (a statutorily defined price based on
                  actual sales transactions) to average wholesale price (the published
                  price most States use to set Medicaid reimbursement rates) for
                  Medicare-covered drugs.


                  BACKGROUND
                  Increases in Medicaid’s prescription drug costs have generated
                  considerable attention from the Administration, Congress, and the
                  States. Federal regulations require that each State’s reimbursement for
                  Medicaid prescription drugs not exceed the lower of (1) its estimated
                  acquisition cost plus a dispensing fee, or (2) the provider’s usual and
                  customary charge to the public for the drug.

                  Currently, most States estimate acquisition cost by discounting the
                  average wholesale price (AWP) by a certain percentage. A small
                  number of States use wholesale acquisition cost (WAC) plus a
                  percentage markup when determining estimated acquisition cost. The
                  AWP is a published price reported in commercial publications.
                  Similarly, the WAC is a price reported in commercial publications.
                  Prior to the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA) (Public Law 108-173), WAC was not a
                  term defined in statute or regulation. The MMA defined WAC as the
                  manufacturer’s list price for the drug to wholesalers or direct
                  purchasers, not including prompt pay or other discounts, rebates, or
                  reductions in price, for the most recent month for which information is
                  available.

                  Previous Office of Inspector General work demonstrated that the AWPs
                  States use to establish their Medicaid drug reimbursement rates are
                  higher than the prices retail pharmacies pay to purchase drugs. The
                  AWP is not defined in law or regulation, and fails to account for the
                  discounts available to various payers.

                  Prior to 2005, Medicare also used the AWP as the basis for Part B drug
                  reimbursement. As of January 1, 2005, the MMA changed the basis of
                  reimbursement for prescription drugs from AWP to average sales price
                  (ASP).

                  Unlike AWP and WAC, there is a specific method to calculate ASP
                  defined in the MMA and the Social Security Act (the Act). Pursuant to


OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   i
E X E C U T I V E                       S U           M M A R Y


                   section 1847A(c) of the Act, as amended by the MMA, the ASP is a
                   manufacturer’s unit sales of a drug to all purchasers in the United
                   States in a calendar quarter divided by the total number of units of the
                   drug sold by the manufacturer in that same quarter. The ASP is net of
                   any price concessions such as volume, prompt pay, and cash discounts.
                   Certain sales are exempt from the calculation of ASP, including sales at
                   a nominal charge. Similar to ASP, average manufacturer price (AMP) is
                   defined in the Act and based on actual sales. Section 1927(k)(1) of the
                   Act defines AMP as the average price paid to the manufacturer by
                   wholesalers in the United States for drugs distributed to the retail
                   pharmacy class of trade, minus customary prompt pay discounts.
                   Medicaid uses AMP data reported quarterly by manufacturers to
                   determine the rebate amount for a drug.

                   The President’s 2006 Budget proposes to require State Medicaid
                   programs to reimburse pharmacies the ASP of a drug. This proposal
                   intends to align pharmacy reimbursement with pharmacy acquisition
                   cost and would be consistent with Medicare reimbursement for Part B-
                   covered drugs as established by the MMA.

                   This analysis compares ASP to AWP for 2,077 national drug codes
                   where both ASP and AWP data were available for the third quarter of
                   2004. We will refer to national drug codes with ASP data as Medicare-
                   covered drugs. Medicare-covered drugs may also be covered under the
                   Medicaid program. We analyzed a subset of these national drug codes
                   (1,481) to compare AMP to AWP by drug type. In addition, we
                   compared WAC to AWP for 1,898 national drug codes.

                   A companion report, “Medicaid Drug Price Comparisons: Average
                   Manufacturer Price to Published Prices” (OEI-05-05-00240), compares
                   AMP to AWP and WAC for Medicaid-reimbursed prescription drugs.
                   That analysis includes 24,101 national drug codes.


                   FINDING
                   Average sales price is substantially lower than average wholesale
                   price for drug codes in this review. For 2,077 national drug codes, the
                   median percentage difference between ASP and AWP is 49 percent.
                   Even when factoring in the discounted AWP most States use to
                   calculate the estimated acquisition cost for Medicaid drugs, ASP is still
                   substantially lower.

                   The difference between ASP and AWP was greatest for generic drugs.
                   For 704 single source brand codes, ASP is 26 percent below AWP at the
 OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   ii
E X E C U T I V E                       S U           M M A R Y


                   median, and for 216 multisource brand codes, ASP is 30 percent below
                   AWP at the median. For 1,152 generic national drug codes, ASP is
                   68 percent less than AWP at the median. For five drug codes, there was
                   no drug type information in the drug compendium.

                   To determine if the difference between the analyzed prices were similar
                   for Medicare and Medicaid drugs, we compared the results of our
                   analysis for Medicare-covered drugs to the analysis for Medicaid-
                   reimbursed drugs in our companion report. The companion report
                   “Medicaid Drug Price Comparisons: Average Manufacturer Price to
                   Published Prices” (OEI-05-05-00240) examined the differences between
                   AMP and AWP for all drugs reimbursed by Medicaid (24,101 national
                   drug codes).

                   We found that the differences between AWP and other prices analyzed
                   are similar for both Medicare and Medicaid drugs. For the 1,481 codes
                   that had AMP and AWP in our review, we found that the difference
                   between AMP and AWP for generic drugs is 72 percent at the median;
                   correspondingly, the companion report found that the difference
                   between AMP and AWP for generic drugs is 70 percent at the median.
                   For single source and multisource brand drugs, this report found that
                   the differences between AMP and AWP are 22 and 25 percent at the
                   median, respectively. Similarly, the companion report found that the
                   differences between AWP and AMP for single source and multisource
                   brand drugs are 23 and 28 percent at the median, respectively.


                   CONCLUSION
                   There is significant interest in changing Medicaid reimbursement for
                   prescription drugs by aligning pharmacy reimbursement more closely
                   with pharmacy acquisition cost. The changes proposed in the
                   President’s 2006 budget would make Medicaid reimbursement
                   consistent with Medicare by basing reimbursement on actual sales
                   transactions. This analysis demonstrates that ASP, which is a
                   statutorily defined price based on actual sales transactions including
                   discounts, was lower than published prices AWP and WAC.

                   We believe this inspection will provide useful information to those
                   considering the implications of changing Medicaid’s drug
                   reimbursement methodology. The substantial disparities between
                   prices based on actual sales and the published prices currently being
                   used indicate that changing the basis of Medicaid reimbursement could
                   have a significant impact on Medicaid expenditures.

 OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   iii
E X E C U T I V E                       S U           M M A R Y 




                   AGENCY COMMENTS
                   CMS commented that these companion reports make clear that current
                   Medicaid payment rules result in overpayments for drugs and
                   emphasizes the need for reform. Similar problems with overpayments
                   for Medicare drugs led to passage of the MMA provisions that changed
                   the basis of reimbursement for drugs from AWP to ASP. CMS
                   reiterated that the President’s 2006 budget proposes to solve this
                   problem by the use of ASP so Medicaid drug prices will reflect actual
                   costs. CMS stated that Congress should enact legislation to ensure that
                   Medicaid payment for drugs is related to actual prices paid by
                   pharmacies. The full text of CMS’s comments are provided in
                   Appendix A.




 OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   iv
Δ   T A B L E            O F             C O N T E N T S                                   




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         FINDING ......................................................... 8

                     Average sales price is substantially lower than average 

                     wholesale price . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                     Appendix A: Centers for Medicare & Medicaid Services’ 

                     Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Δ   I N T R O D U C T I O N                                                   



                  OBJECTIVE
                  To compare average sales price (a statutorily defined price based on
                  actual sales transactions) to average wholesale price (the published
                  price most States use to set Medicaid reimbursement rates) for
                  Medicare-covered drugs.


                  BACKGROUND
                  Increases in Medicaid’s prescription drug costs have generated
                  considerable attention from the Administration, Congress, and the
                  States. The House Energy and Commerce Subcommittee on Oversight
                  and Investigations held a hearing in December 2004 on “Medicaid
                  Prescription Drug Reimbursement: Why the Government Pays Too
                  Much” and explored potential reforms.1 Congress has established a
                  Medicaid commission to provide recommendations to achieve $10 billion
                  in overall Medicaid savings over the next 5 years and to consider longer-
                  term performance goals and recommendations.2 The National
                  Governors Association is also working on proposals to reduce Medicaid
                  spending, including spending on prescription drugs.3
                  The Office of Inspector General (OIG) and others have found evidence
                  that because States lack accurate drug pricing data, Medicaid drug
                  reimbursements overestimate pharmacies’ actual acquisition costs. OIG
                  has also found that Medicaid drug reimbursements exceed the prices
                  paid by other Federal programs. OIG has recommended that Medicaid
                  should base reimbursement on pricing data that more accurately
                  reflects actual acquisition costs.4
                  The Administration has expressed interest in adopting a
                  reimbursement system for Medicaid that is similar to the Medicare Part
                  B drug reform enacted under the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 (MMA)
                  (Public Law 108-173). The MMA amended the Social Security Act (the
                  Act) to change the method of reimbursement for prescription drugs from
                  average wholesale price (AWP) to average sales price (ASP).

                  The President’s 2006 budget proposes restructuring Medicaid pharmacy
                  reimbursement to save an estimated $542 million in fiscal year (FY)
                  2006 and $15.1 billion over 10 years.5 This budget also proposes to
                  require State Medicaid programs to reimburse pharmacies the ASP of a
                  drug plus a 6 percent fee for storage, dispensing, and counseling.
                  According to the President’s budget, this reimbursement methodology

OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   1
I N T R O D        U C T             I O N


                    aligns pharmacy reimbursement with pharmacy acquisition cost and is
                    consistent with Medicare reimbursement for Part B-covered drugs as
                    established by the MMA.
                    Medicaid Reimbursement for Prescription Drugs
                    The Medicaid program, established under Title XIX of the Act, is
                    administered by States and financed with State and Federal funds.
                    Medicaid pays for medical and health-related assistance for certain
                    vulnerable and needy individuals and families. All 50 States and the
                    District of Columbia provide coverage for prescription drugs under the
                    Medicaid program.

                    Federal regulations require, with certain exceptions, that State
                    Medicaid reimbursements for prescription drugs not exceed the lower of
                    (1) its estimated acquisition cost plus a dispensing fee, or (2) the
                    provider’s usual and customary charge to the public for the drug. CMS
                    allows each State to define estimated acquisition cost.
                    Average wholesale price and wholesale acquisition cost. Currently, most
                    States estimate acquisition cost by discounting AWP by a certain
                    percentage. A small number of States use wholesale acquisition cost
                    (WAC) plus a percentage markup when calculating estimated
                    acquisition costs. According to information obtained from CMS’s Web
                    site, the discount from AWP in the State methodologies ranged from
                    5 to 50 percent, and the percentage markup to WAC ranged from
                    5 to 12 percent as of March 2005. The median discount for drugs for
                    States that use AWP to calculate estimated acquisition cost was AWP
                    minus 12 percent. The median percentage markup to WAC for the
                    small number of States that use this price to calculate estimated
                    acquisition cost was 8.5 percent.
                    The AWP is a price published in commercial publications. It is an
                    important prescription drug pricing benchmark for payers throughout
                    the health care industry. Similarly, the WAC is a price reported in
                    commercial publications. Prior to the MMA, WAC was not a term
                    defined in statute or regulation. The MMA defined WAC as the
                    manufacturer’s list price for the drug to wholesalers or direct
                    purchasers, not including prompt pay or other discounts, rebates, or
                    reductions in price, for the most recent month for which information is
                    available.

                    Previous OIG work demonstrated that the AWPs States use to calculate
                    estimated acquisition cost that determine Medicaid drug
                    reimbursement rates are higher than the prices retail pharmacies pay

 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   2
I N T R O D        U C T             I O N


                    to purchase drugs.6 The AWP is not defined in law or regulation, and
                    fails to account for the discounts available to various payers, including
                    certain Federal agencies, providers, and large purchasers. It is a price
                    derived from manufacturer-reported data for both brand and generic
                    drugs.

                    According to the President’s 2006 Budget, the current Medicaid
                    reimbursement method has created an incentive for manufacturers to
                    artificially raise the AWP to make their products more attractive to
                    pharmacies because the profit will be larger with the higher price.
                    According to Congressional testimony, States continue to rely on AWP,
                    despite its widely recognized deficiencies, because they lack access to
                    more accurate pricing information.

                    Prior to 2005, Medicare also used AWP as the basis for Part B drug
                    reimbursement. However, numerous reports by OIG and the
                    Government Accountability Office, as well as data collected by the
                    Department of Justice and Congressional investigations, indicated that
                    Medicare’s reimbursement rate was significantly higher than the prices
                    that drug manufacturers, wholesalers, and other similar entities
                    actually charge to physicians and suppliers who purchase these drugs.
                    Consequently, the MMA changed the basis of reimbursement for
                    prescription drugs from AWP to ASP.
                    Medicare Drug Reimbursement Methodologies
                    Average sales price. In 2005, Medicare began to pay for most drugs using
                    an entirely new methodology based on ASP rather than AWP. Unlike
                    AWP and WAC, there is a specific method to calculate ASP set forth in
                    the MMA and the Act. Section 1847A(c) of the Act, as amended by the
                    MMA, defines ASP as a manufacturer’s unit sales of a drug to all
                    purchasers in the United States in a calendar quarter divided by the
                    total number of drug units sold by the manufacturer in that same
                    quarter. The ASP is net of any price concessions such as volume,
                    prompt pay, and cash discounts; free goods contingent on purchase
                    requirements; chargebacks; and rebates other than those obtained
                    through the Medicaid drug rebate program. Certain sales are exempt
                    from the calculation of ASP, including sales at a nominal charge.

                    Manufacturers report ASPs to the Centers for Medicare & Medicaid
                    Services (CMS) on a quarterly basis by national drug code, which is an
                    11-digit identifier that indicates the manufacturer of the drug, the
                    product dosage form, and the package size. Third quarter 2004 ASP
                    submissions to CMS from manufacturers served as the basis for first

 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   3
I N T R O D        U C T             I O N


                    quarter 2005 Medicare allowances for most covered drug codes. As of
                    January 1, 2005, Medicare’s allowance for most covered outpatient drug
                    codes is equal to 106 percent of the volume-weighted ASPs for those
                    drugs.
                    The Medicaid Drug Rebate Program
                    Average manufacturer price. Similar to ASP, average manufacturer price
                    (AMP) is defined by law and based on actual sales transactions. In
                    order for a manufacturer’s drug to be eligible for Federal Medicaid
                    matching funds, section 1927(a)(1) of the Act mandates that drug
                    manufacturers enter into rebate agreements with the Secretary and pay
                    quarterly rebates to State Medicaid agencies. Under these rebate
                    agreements and the law, manufacturers must provide CMS with the
                    AMP for each of their national drug codes on a quarterly basis.
                    Medicaid calculates drug rebates based on AMP. Section 1927(k)(1) of
                    the Act defines AMP to be the average price paid to the manufacturer
                    by wholesalers in the United States for drugs distributed to the retail
                    pharmacy class of trade minus customary prompt pay discounts. The
                    AMP is calculated as a weighted average of prices for all of a
                    manufacturer’s package sizes of a drug sold during a given quarter and
                    is reported for the lowest identifiable quantity of the drug (e.g., one
                    milligram, one milliliter, one tablet, one capsule).
                    Companion Report
                    A companion report: “Medicaid Drug Price Comparisons: Average
                    Manufacturer Price to Published Prices” (OEI-05-05-00240), examines
                    the differences between AWP, WAC, and AMP for all Medicaid-
                    reimbursed drug codes (24,101 national drug codes). For comparability,
                    we also examined the differences between AMP, WAC, and AWP for
                    national drug codes with ASP values. This comparison would determine
                    if there were substantial price differences for Medicaid-reimbursed
                    drugs and our smaller subset of Medicare-covered drugs.


                    METHODOLOGY
                    This analysis compares ASP to AWP for 2,077 national drug codes
                    where both ASP and AWP data were available for the third quarter of
                    2004. We will refer to national drug codes with ASP data as Medicare-
                    covered drugs. Medicare-covered drugs may also be covered under the
                    Medicaid program. We also analyzed a subset of these national drug
                    codes (1,481) where both AMP and AWP were available. In addition, we
                    analyzed 1,898 codes where both WAC and AWP were available. We


 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   4
I N T R O D        U C T             I O N


                    analyzed these subsets of codes to determine how the differences
                    between the price points for Medicare-covered drugs would compare to
                    the differences for Medicaid-reimbursed drugs found in our companion
                    report.
                    Centers for Medicare & Medicaid Services Data
                    We obtained ASP and AMP data for third quarter 2004 from CMS.

                    Average sales price data. We obtained ASPs for 2,113 national drug codes
                    that CMS used in its calculation of volume-weighted ASP for Medicare
                    reimbursement. When calculating the ASPs, CMS only includes
                    national drug codes with ASP submissions that are deemed acceptable.
                    We did not examine the national drug codes that CMS opted to exclude
                    from its calculation. These ASPs were based on data submitted by
                    manufacturers for the third quarter of 2004.

                    We did not verify the accuracy of the billing units information contained
                    in CMS’s ASP data; however, OIG may review this information as part
                    of a future study.
                    Average manufacturer price data. For the 2,113 national drug codes that
                    had ASP data, we also obtained AMP data from CMS for the third
                    quarter of 2004. We determined that 1,500 of these national drug codes
                    had usable AMPs. We used a national drug code’s AMP when (1) CMS
                    used the code in its calculation of volume-weighted ASP, and (2) we
                    could successfully identify the amount of drug that the code’s AMP
                    represented.

                    An AMP is reported for the lowest identifiable quantity of the drug
                    contained in the national drug code (e.g., one milligram, one milliliter,
                    one tablet, one capsule). In contrast, we obtained ASP, AWP, and WAC
                    data for the entire amount of the drug contained in the national drug
                    code (e.g., for 50 milliliters, for 100 tablets). To ensure that all prices
                    were for comparable units, we converted each AMP so that it
                    represented the total amount of the drug contained in that code. To
                    accomplish this, we multiplied the AMPs for these 1,500 national drug
                    codes by the total amount of the drug contained in each code, as
                    identified by sources such as the CMS crosswalk file, “Red Book,”
                    manufacturer Web sites, and the Food and Drug Administration’s
                    national drug code directory.




 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   5
I N T R O D        U C T             I O N


                    Drug Compendium Data
                    We obtained AWP and WAC package prices for third quarter 2004 from
                    a national drug compendium. This compendium’s drug databases
                    contain national drug codes, drug names, product description, and
                    pricing information, including AWP and WAC.

                    Since we obtained monthly data for AWP and WAC, we selected a price
                    from 1 month of third quarter 2004 for both price types. To be
                    conservative, we selected the minimum quarterly AWP per national
                    drug code and maximum quarterly WAC per national drug code for this
                    analysis.
                    Third quarter 2004 average wholesale price and wholesale acquisition cost.
                    We obtained AWP and WAC prices per national drug code for third
                    quarter 2004 because the ASP and AMP prices we collected are based on
                    manufacturer submissions for the third quarter of 2004. From the
                    2,113 national drug codes for which we had ASP data, we found
                    2,079 codes with AWP data and 1,899 with WAC data.
                    Average Sales Price Comparison
                    We created one data set that contained ASP and AWP data for all drugs
                    under review. We excluded from our analysis codes that did not have
                    information for both ASP and AWP. We also excluded two codes where
                    the ASP was zero. As a result of this, there were 2,077 unique national
                    drug codes included in our comparison of ASP to AWP.

                    We used AWP as our point of comparison because most States calculate
                    estimated acquisition cost based on AWP minus some percentage. For
                    each of the 2,077 national drug codes, we calculated the percentage
                    difference between ASP and AWP. We calculated the median
                    percentage difference for these 2,077 codes under review.
                    We also calculated the median percentage differences for single source,
                    innovator multiple source, and non-innovator multiple source drugs.
                    Hereafter, we will refer to single source as single source brand;
                    innovator multiple source as multisource brand; and non-innovator
                    multiple source as generic. We identified each drug type for these
                    categories based on information in the drug compendium. For five
                    codes, there was no drug type information in the drug compendium. We
                    excluded these five codes from our analysis of drug type. We did not
                    verify the data from the compendium.




 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   6
I N T R O D        U C T             I O N


                    Comparisons of Other Price Points
                    We analyzed a subset of codes to determine how the differences between
                    the price points for Medicare-covered drugs would compare to the
                    differences for Medicaid-reimbursed drugs found in our companion
                    report. Out of the 2,077 drug codes we reviewed, we compared AMP to
                    AWP for the 1,483 codes where both prices were available. For two of
                    these codes, there was no drug type information in the drug
                    compendium. We excluded these codes from our analysis of drug type.
                    For each of the 1,481 codes in this subset, we calculated the median
                    percentage difference between AMP and AWP for each drug type. For
                    this analysis of Medicare-covered drugs, we did not use the same drug
                    compendium for AWP and WAC data as the companion report.

                    Out of the 2,077 drug codes we reviewed, we compared WAC to AWP for
                    the 1,898 codes where both prices were available. For each code in this
                    subset, we calculated the median percentage difference between WAC
                    and AWP for each drug type.
                    Limitations
                    We intend this inspection to provide information that is useful to those
                    who are considering changing the basis of Medicaid reimbursement
                    from a published price to a price based on actual sales. However, our
                    analysis compares price points and not actual reimbursements. It is a
                    theoretical analysis that is useful to estimate the impact of such a
                    reimbursement change, but it does not measure the actual impact of
                    such a change for two main reasons. First, States do not always
                    reimburse at the amount that their estimated acquisition cost formulas
                    would predict. Our analysis does not capture the full complexity of
                    Medicaid reimbursement, which can include tiered estimated
                    acquisition cost formulas as well as other price points (i.e., usual and
                    customary charge, Federal upper limits, and State maximum allowable
                    costs). Second, we are comparing published prices to ASP. However, if
                    the basis of Medicaid reimbursement were changed to ASP, it would
                    likely be ASP plus a markup percentage. For example, Medicare Part B
                    now reimburses prescription drugs at ASP plus 6 percent.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President=s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-05-00200    M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   7
Δ   F I N D I N G                        


Average sales price is substantially lower than    The ASP, a statutorily defined price
average wholesale price for drug codes in this     based on actual sales transactions
                                                   including discounts, is
                                       review
                                                   substantially lower than AWP. For
                2,077 national drug codes with ASP and AWP data, ASP is 49 percent
                lower than AWP at the median.

                  For the purposes of Medicaid reimbursement, most States estimate
                  acquisition cost by discounting AWP by a percentage ranging from 5 to
                  50 percent. The median discount for States that use AWP to calculate
                  estimated acquisition cost drugs was 12 percent below AWP. Even
                  when taking into account the discounted AWP most States use to
                  calculate estimated acquisition cost, ASP is still substantially lower
                  than AWP.
                  The ASP for generic drugs was substantially less than AWP when compared
                  to single source and multisource brand drugs.
                  We analyzed the median percentage differences between ASP and AWP
                  by type of drug: single source brand, multisource brand, and generic.
                  For 704 single source brand codes, ASP is 26 percent below AWP at the
                  median, and for 216 multisource brand codes, ASP is 30 percent below
                  AWP at the median. The difference between ASP and AWP was
                  greatest for generic drugs. For 1,152 generic national drug codes, ASP
                  is 68 percent less than AWP at the median. For five drug codes, there
                  was no drug type information in the drug compendium.
                  The differences between AWP and other prices are similar for both
                  Medicaid-reimbursed drugs and the smaller subset of Medicare-covered
                  drugs we reviewed.
                  To determine if the differences between the price points were similar for
                  Medicare and Medicaid drugs, we compared the results of our analysis
                  for Medicare-covered drugs to the analysis for Medicaid-reimbursed
                  drugs in our companion report. Medicare-covered drugs may also be
                  covered under the Medicaid program.

                  The companion report “Medicaid Drug Price Comparisons: Average
                  Manufacturer Price to Published Prices” (OEI-05-05-00240) examined
                  the differences between AMP and AWP for drugs reimbursed by
                  Medicaid (24,101 national drug codes). The companion report’s findings
                  for Medicaid-reimbursed drugs were similar to this report's finding for
                  the subset of Medicare drugs we reviewed. It found that the difference
                  between AMP and AWP was greatest for generic drugs.



OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   8
F   I N D I N G


                      For the 1,481 codes that had AMP and AWP in our review, we found
                      that the difference between AMP and AWP for generic drugs is
                      72 percent at the median; correspondingly, the companion report found
                      that the difference between AMP and AWP for generic drugs is
                      70 percent at the median. For single source and multisource brand
                      drugs, this report found that the differences between AMP and AWP at
                      the median are 22 and 25 percent, respectively. Similarly, the
                      companion report found that the differences between AWP and AMP for
                      single source and multisource brand drugs at the median are 23 and
                      28 percent, respectively.

                      The companion report also found similar differences between WAC and
                      AWP. For the 1,898 codes that had AWP and WAC in our review, we
                      found WAC is 20 percent lower than AWP for Medicare drugs at the
                      median and the companion report found that WAC is 22 percent lower
                      than AWP for Medicaid-reimbursed drugs at the median.




    OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   9
F IE NC DO I M N MG E N D A T
R                                                    I O N              S
Δ     C O N C L U S I O N                                          





                    There is significant interest in changing Medicaid reimbursement for
                    prescription drugs by aligning pharmacy reimbursement more closely
                    with pharmacy acquisition cost. The changes proposed in the
                    President’s 2006 budget would make Medicaid reimbursement
                    consistent with Medicare by basing reimbursement on actual sales
                    transactions. This analysis demonstrates that ASP, which is a
                    statutorily defined price based on actual sales transactions including
                    discounts, was lower than published prices AWP and WAC.
                    We believe this inspection will provide useful information to those
                    considering the implications of changing Medicaid’s drug
                    reimbursement methodology. The substantial disparities between
                    prices based on actual sales and the published prices currently being
                    used indicate that changing the basis of Medicaid reimbursement could
                    have a significant impact on Medicaid expenditures.


                    AGENCY COMMENTS
                    CMS commented that these companion reports make clear that current
                    Medicaid payment rules result in overpayments for drugs and
                    emphasizes the need for reform. Similar problems with overpayments
                    for Medicare drugs led to passage of the MMA provisions that changed
                    the basis of reimbursement for drugs from AWP to ASP. CMS
                    reiterated that the President’s 2006 budget proposes to solve this
                    problem by the use of ASP so Medicaid drug prices will reflect actual
                    costs. CMS stated that Congress should enact legislation to ensure that
                    Medicaid payment for drugs is related to actual prices paid by
                    pharmacies. The full text of CMS’s comments are provided in
                    Appendix A.




  OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   10
Δ   A P P E N D I X                               ~           A


     Centers for Medicare & Medicaid Services’ Comments




OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   11

A   P   P E N D       I X ~           A           





    OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   12 

A   P   P E N D       I X ~           A           





    OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   13 

Δ   E N D N O T E S                                 




                  1   Testimony transcript available at:
                      http://www.oig.hhs.gov/testimony/docs/2004/reeb120704.pdf.

                  2   Federal Register Notice. Medicaid Program; Establishment of the
                      Medicaid Commission and Request for Nominations for Members.
                      CMS-2214-N.

                  3   Available online at www.nga.org.

                  4   “Variations in State Medicaid Drug Prices” (OEI-05-02-00681); “Cost
                      Containment of Medicaid HIV/AIDS Drug Expenditures”(OEI-05-99
                      00611); “Medicaid Pharmacy—Additional Analyses of the Actual
                      Acquisition Cost of Prescription Drug Products” (A-06-02-00041).

                  5   United States House of Representatives Committee on the Budget.
                      “Analysis of the President’s Budget for FY 2006.” Available at:
                      http://www.house.gov/budget/analysisprez021105.pdf.

                  6   “Medicaid Pharmacy – Actual Acquisition Cost of Prescription Drug
                      Products for Brand Name Drugs” (A-06-96-00030); “Medicaid
                      Pharmacy – Actual Acquisition Cost of Generic Prescription Drug
                      Products” (A-06-97-00011); “Actual Acquisition Cost of Brand Name
                      Prescription Drug Products” (A-06-00-00023); “Medicaid Pharmacy –
                      Actual Acquisition Cost of Generic Prescription Drug Products”
                      (A-06-01-00053); “Medicaid Pharmacy – Additional Analyses of the
                      Actual Acquisition Cost of Prescription Drug Products” (A-06-02-00041);
                      “Medicaid’s Use of Revised Average Wholesale Prices”
                      (OEI-03-01-00010); “Containment of Medicaid HIV/AIDS Drug
                      Expenditures” (OEI-05-99-00611).




OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   14
Δ   A C K N O W L E D G M E N T S                                                                           



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Edward K. Burley, Project Leader
                  Linda B. Abbott, Program Specialist




                  1



                  2



                  3



                  4



                  5



                  6




OEI-03-05-00200   M E D I C A I D D R U G P R I C E C O M PA R I S O N : AV E R A G E S A L E S P R I C E   TO   AV E R A G E W H O L E S A L E P R I C E   15
